   July 1, 2005




Joint Warfighting and
Readiness

DoD Execution of the Warsaw
Initiative Program
(D-2005-085)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ASD(ISP)              Assistant Secretary of Defense (International Security Policy)
DSCA                  Defense Security Cooperation Agency
GAO                   Government Accountability Office
NATO                  North Atlantic Treaty Organization
O&M                   Operation and Maintenance
OSD                   Office of the Secretary of Defense
PfP                   Partnership for Peace
PIMS                  Partnership for Peace Information Management System
RDT&E                 Research, Development, Test, and Evaluation
SOP                   Standard Operating Procedure
WI                    Warsaw Initiative
          Office of the Inspector General of the Department of Defense
Report No. D-2005-085                                                          July 1, 2005
   (Project No. D2004LG-0143)

              DoD Execution of the Warsaw Initiative Program

                                 Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
responsible for developing and executing policy for the Warsaw Initiative program
should read this report. The report discusses possible additional legislative authorities
that might provide benefits to DoD implementation of the Warsaw Initiative program.
Also, the report discusses the need to develop and issue guidance that will ensure
consistent execution of the Warsaw Initiative program by the combatant commands.
Background. In January 1994, the North Atlantic Treaty Organization (NATO)
launched the Partnership for Peace program, which provides assistance to countries
seeking cooperative military and peacekeeping relations with NATO. On July 7, 1994, in
Warsaw, Poland, President Clinton announced his commitment to provide U.S. assistance
to new democratic countries for the purpose of advancing Partnership for Peace goals.
That speech led to development of the Warsaw Initiative program. The Warsaw
Initiative program is a U.S. program that the Departments of State and Defense manage
to advance closer relations and military interoperability between NATO and countries
committed to democratic principles. President Clinton requested that Congress commit
$100 million in FY 1996 to the program; Congress has funded the Warsaw Initiative
program each year since FY 1996.

Within DoD, multiple offices oversee management and implementation of the Warsaw
Initiative program. The Assistant Secretary of Defense (International Security Policy) is
responsible for development, coordination, and oversight of policy and other activities
related to the Warsaw Initiative program. Under the direction of the Assistant Secretary
of Defense (International Security Policy), the Defense Security Cooperation Agency
manages the program. DoD combatant commanders and program managers are
responsible for executing the Warsaw Initiative program funds provided by the Defense
Security Cooperation Agency.

Results. DoD executed the Warsaw Initiative program using existing authorities under
sections 168, 1051, and 2010, title 10 of the United States Code. However, other
legislation exists that may benefit DoD in executing the Warsaw Initiative program.
Examples of other legislation are the NATO Participation Act of 1994 and the NATO
Enlargement Facilitation Act of 1996. In addition, DoD issued draft guidance in 1998 for
executing the Warsaw Initiative program. However, DoD cancelled that guidance and
did not issue any other guidance outlining policies and procedures for executing the
Warsaw Initiative program.
As a result, program managers responsible for executing the Warsaw Initiative program
may not be using existing statutory authorities to the fullest extent. Also, combatant
commanders were inconsistently executing Warsaw Initiative funds and were not always
maintaining documentation that could support payments for expenses.

The Assistant Secretary of Defense (International Security Policy) should request that the
DoD General Counsel evaluate and assess applicability of other existing statutory
authorities—such as the NATO Participation Act of 1994 and the NATO Enlargement
Facilitation Act of 1996—to the Warsaw Initiative program. Also, the Assistant
Secretary of Defense (International Security Policy) should develop and issue guidance,
to include the appropriate statutory authorities, that provides consistent policies and
procedures for executing the Warsaw Initiative program. Also, the Command and
Control Director of the U.S. European Command should initiate action to reimburse the
Warsaw Initiative fund for entertainment costs and the publication expense of a ten year
history of a U.S. European Command exercise. (See the Finding section of the report for
the detailed recommendations.)

Hotline Allegation. This audit was initiated in response to an allegation made to the
Defense Hotline regarding the use of Warsaw Initiative funds to establish a new facility
for the Partnership for Peace Information Management System. The Defense Hotline
allegation stated that “hundreds of thousands of dollars” were inappropriately redirected
from Partnership for Peace funds to establish a new facility. That allegation was partially
substantiated because Partnership for Peace funds were used to pay for modification of a
building in Belgium. Although Partnership for Peace Information Management System
officials designated non-Partnership for Peace funding for the building modifications,
Partnership for Peace funds totaling $36,193.48 were used. During our audit, Partnership
for Peace Information Management System officials initiated an accounting adjustment
to move the charge to the correct funding account. (See Appendix B for a summary of
the allegation.)

Management Comments and Audit Response. The Acting Assistant Secretary of
Defense (International Security Policy) concurred with the recommendation to issue
guidance for the Warsaw Initiative program. We revised our recommendation requesting
a legal review and request that the Acting Assistant Secretary provide comments by
August 15, 2005, on the revised Recommendation 1.a.

The U.S. European Command’s Deputy Director of Strategy, Policy, and Assessments
concurred with the recommendation to make accounting adjustments for entertainment
costs, and non-concurred with the recommendation to reimburse the publication costs.
We have revised the recommendation based on management comments, but will defer
requesting further comments on the revised recommendation until the Acting Assistant
Secretary of Defense (International Security Policy) establishes criteria for determining
reimbursable costs for the Warsaw Initiative program. See the Finding section of the
report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              2

Finding
     DoD Execution of the Warsaw Initiative Program                     3

Appendixes
     A. Scope and Methodology                                           15
         Management Control Program Review                              15
     B. Defense Hotline Allegation on Warsaw Initiative Funding         17
     C. Report Distribution                                             20

Management Comments
     Assistant Secretary of Defense for International Security Policy   23
     U.S. European Command                                              24
Background
    The North Atlantic Treaty. The North Atlantic Treaty (the Treaty) was signed
    in April 1949 by the United States, Canada, and 10 European countries. The
    Treaty created a political framework for an international alliance and obligated its
    members to the prevention or repulsion of aggression should it occur against one
    or more of the treaty countries.

    Article 10 of the Treaty allows other European countries to enter the Treaty if the
    country agrees to its principles and if members unanimously agree to accept the
    country. Between 1949 and 1994, 4 European countries entered into the Treaty,
    bringing the total number of North Atlantic Treaty Organization (NATO)
    members to 16.

    NATO Partnership for Peace Program. In January 1994, NATO launched the
    Partnership for Peace (PfP) program, which provides assistance to countries who
    want to develop cooperative military and peacekeeping relations with NATO.
    The overarching goal of PfP, as defined by the member countries of NATO, is to
    enhance stability and security throughout Europe and Eurasia by forging strong
    partnerships between the NATO Alliance and partner countries. Partnerships are
    based on practical cooperation and commitment to democratic principles. Full
    participation in PfP is essential for countries that want to join NATO because the
    partnership allows those countries to develop interoperability with NATO forces
    and to prepare their force structure and capabilities for possible future
    membership.

    Since the inception of PfP, 30 countries have been involved in the program. Of
    those 30, 10 countries have joined NATO. In March 1999, the Czech Republic,
    Hungary, and Poland joined NATO and in March 2004, Bulgaria, Estonia, Latvia,
    Lithuania, Romania, Slovakia, and Slovenia became full NATO members. The
    total number of members is now 26.

    In June 2004, NATO held its 17th Summit meeting in Istanbul, Turkey, at which
    participants discussed the future of the PfP program and the progress of the
    remaining 20 PfP countries. At that summit, Albania, Croatia, and the former
    Yugoslav Republic of Macedonia were recognized for their efforts in striving for
    NATO membership. NATO pledged to continue to assist those countries in their
    reform efforts. The participants also agreed that the NATO PfP program would
    shift its focus to PfP countries in the Caucasus (Armenia, Azerbaijan, and
    Georgia) and Central Asia (Kazakhstan, Kyrgyzstan, Tajikistan, Turkmenistan,
    and Uzbekistan).

    U.S. Warsaw Initiative Program. On July 7, 1994, in Warsaw, Poland,
    President William J. Clinton announced his commitment to provide U.S.
    assistance to new democratic countries for the purpose of advancing PfP goals.
    The announcement led to development of the Warsaw Initiative program, a U.S.
    program that the Department of State and DoD manage to advance closer
    relations and military interoperability between NATO and PfP countries.
    President Clinton requested that Congress commit $100 million in FY 1996 for
    the program. To support the program, the Department of State requested $60
    million and DoD requested $40 million in their FY 1996 budgets. Each year


                                         1
           since FY 1996, Congress has funded the Warsaw Initiative (WI) program and
           DoD has expended between $37 million and $49 million. As of March 2004, 15
           of the 20 PfP countries were deemed eligible to receive support according to
           Defense Security Cooperation Agency (DSCA) officials. The remaining five
           countries—Austria, Finland, Ireland, Sweden, and Switzerland—are considered
           advanced countries and, therefore, capable of financing their own participation in
           conferences and exercises.

           DoD Roles and Responsibilities. The Under Secretary of Defense for Policy is
           responsible for overall implementation and oversight of the DoD WI program.
           Within that organization, the Assistant Secretary of Defense (International
           Security Policy) (ASD[ISP]) is responsible for the development, coordination,
           and oversight of policy for the WI program.

           DSCA manages the WI program and budgets Defense funds for the program
           through its Operation and Maintenance (O&M) account. As the WI program
           manager, DSCA manages and administers the WI program funds to the combatant
           commands and other DoD program managers. DSCA officials stated that they
           also perform biannual reviews to reconcile the financial records of the program
           and to discuss any policy issues. The combatant commands and DoD program
           managers are responsible for execution of the WI program. For FY 2003, DoD
           spent approximately $47.7 million in support of the WI program. The
           U.S. European Command, U.S. Central Command, and the U.S. Joint Forces
           Command received WI program funds of $19.0 million, $4.5 million, and
           $1.6 million, respectively. The remaining $22.6 million was used for various
           DoD programs, such as the PfP Information Management System (PIMS) and the
           Regional Airspace Initiative.


Objectives
           Our overall audit objective was to evaluate the DoD role in supporting the PfP 1
           program. Specifically, we evaluated the DoD management and execution of the
           WI program and the processes used to ensure that program funds were used for
           their intended purposes. In addition, we reviewed the Defense Hotline allegation
           concerning the use of WI program funds to construct a new facility for the PIMS.
           See Appendix A for a discussion of the scope and methodology, a review of the
           management control program, and prior coverage related to the audit objectives.
           See Appendix B for a discussion of the Defense Hotline allegation.




1
    DoD provides support to the PfP program through the WI program.



                                                    2
            DoD Execution of the Warsaw Initiative
            Program
            DoD executed the WI program using existing authorities under sections
            168, 1051, and 2010, title 10 of the United States Code. However, other
            legislative authorities exist that may further benefit DoD in executing the
            WI program. In addition, although DoD issued previous draft guidance in
            1998 on the WI program, DoD has since cancelled that guidance and not
            issued a formal directive outlining policies and procedures for executing
            the WI program. Those conditions occurred because DoD did not identify
            a need for a review of existing legislative authorities and determined that
            existing informal guidance was sufficient for execution of the WI
            program. As a result, DoD may not be obtaining the full benefit of
            existing legislation applicable to the WI program, and combatant
            commands are inconsistently executing WI policies and procedures.


Criteria
     DoD implemented the WI program using existing statutory authorities under
     title 10. The following sections in title 10 primarily allow for the payment of
     incremental costs for developing countries to attend conferences, multilateral and
     bilateral exercises, and seminars that enhance the security interests of the United
     States. In addition, the statutory authorities in title 10 allow for the payment of
     U.S. costs for activities that encourage democratic orientation of the military
     forces of other countries.

     10 U.S.C. 168. According to section 168, title 10, United States Code
     (10 U.S.C. 168), amended on February 10, 1996, the Secretary of Defense may
     conduct military-to-military contacts and comparable activities designed to
     encourage a democratic orientation of the military forces of other countries. To
     carry out the program, title 10 states that funds appropriated and made available
     for carrying out the authorized activities may be used for, among other things,
     U.S. activities and expenses for military liaisons and traveling contact teams as
     well as for seminars and conferences held in the theater of operations. Expenses
     include transportation, translation, administrative expenses, and personnel
     expenses for DoD civilian and military personnel related to those activities.

     10 U.S.C 1051. According to 10 U.S.C. 1051, the Secretary of Defense may pay
     the travel, subsistence, and similar personal expenses of military personnel of a
     developing country in connection with attendance of such personnel at a bilateral
     or regional conference, seminar, or comparable meeting if it is determined that the
     attendance of personnel is in the interest of national security. Authorized
     expenses may be paid on behalf of personnel from a developing country only in
     connection with travel within the combatant command’s area of responsibility, to
     Canada or Mexico, or to the combatant command headquarters if the headquarters
     is located in the United States. The Secretary of Defense may also pay such other
     expenses in connection with conferences, seminars, or similar meetings that are
     considered in the interest of national security. Public Law 107-314, “Bob Stump


                                          3
    National Defense Authorization Act for FY 2003,” December 2, 2002, amended
    10 U.S.C. 1051 to also allow travel expenses for Defense personnel of developing
    PfP countries to the territory of any of the countries that are also participating in
    the NATO PfP program or the territory of any NATO member country.

    10 U.S.C 2010. According to 10 U.S.C. 2010, amended on November 18, 1997,
    the Secretary of Defense may pay the incremental expenses incurred by a
    developing country as a direct result of participating in a bilateral or multilateral
    military exercise with the United States if the exercise is undertaken primarily to
    enhance U.S. security interests. Incremental expenses are defined as reasonable
    and proper costs of the goods and services that are consumed by a developing
    country as a direct result of that country’s participation, including rations, fuel,
    training ammunition, and transportation. The Secretary of Defense must also
    determine that participation by that country is necessary for achieving the
    exercise objective and that the objective could not have been achieved unless the
    incremental expenses incurred by that country were provided. In addition, the
    Secretary of Defense shall establish by regulation accounting procedures that
    ensure funds are properly expended.


DoD Implementation of the WI Program
    Existing Legislative Authorities. According to ASD(ISP) personnel, when
    appropriating funds for the WI program Congress indicated that existing statutory
    authorities should be used to implement the program. ASD(ISP) personnel
    considered sections 168, 1051, and 2010 in title 10 as the existing statutory
    authorities for executing that program.

    Subsequent to our draft report, however, ASD(ISP) officials provided additional
    documents that showed a series of discussions between DoD officials, including
    the General Counsel, on which statutory authorities DoD should use to implement
    the WI program and whether additional authorities for executing the program
    should be requested from Congress. DoD determined that the flexibilities in
    executing the WI program using the existing legislative authorities would suffice.
    As a result, the consensus was that DoD did not require additional authorities
    through new legislation.

    Draft SOP for the Administration of the WI Program. The Draft Standard
    Operating Procedure (Draft SOP) was developed on February 15, 1998, on the
    basis of 10 U.S.C. 1051 and 10 U.S.C. 2010. The Draft SOP stated that funds are
    intended solely to pay the costs incurred by PfP countries and may not be used to
    pay the expenses for the United States, NATO allies, or non-PfP countries, even if
    those expenses are directly associated with participating in a PfP event. The Draft
    SOP also stated that proper files and record keeping must be maintained and
    include a continuity file for newly assigned personnel on how previous exercises
    were accomplished.

    The Draft SOP stated that the SOP is the guidance the field should use until the
    final version is completed. However, the Draft SOP was never finalized and
    subsequently rescinded. In April 2004, during a WI conference, DSCA officials
    stated that the Draft SOP should no longer be used as guidance. ASD(ISP) and


                                          4
     DSCA officials stated that they rescinded the Draft SOP because they considered
     it cumbersome. Although still providing answers to questions, ASD(ISP)
     officials have not provided any formal written guidance in the form of a directive
     to execute the program and combatant command officials stated that because no
     written directive existed, they were still using the Draft SOP.


Existence of Other Possible WI Legislative Authorities
     Although DoD executed the WI program using existing statutory authorities
     granted under title 10, other legislative authorities exist that may provide
     additional benefits to DoD in executing the WI program. Such additional
     legislation may benefit DoD through its designation of countries and entities
     eligible to receive development funds and include the NATO Participation Act of
     1994 (the 1994 Act) and the NATO Enlargement Facilitation Act of 1996 (the
     1996 Act).

     The 1994 Act provides statutory authority to establish a program to offer
     assistance to PfP countries transitioning to NATO. Also, the 1996 Act expands
     the 1994 Act and designates specific countries for assistance. Those Acts may
     also apply to the DoD-managed WI program.

     NATO Participation Act of 1994. The 1994 Act was established under title II of
     the International Narcotics Control Corrections Act of 1994. The legislation
     states that the “sense of Congress” was that active PfP countries should be invited
     to become NATO members if they are in a position to further the principles of the
     Treaty and contribute to the security of the region. The legislation authorizes the
     President to establish a program that provides assistance for emerging countries if
     a determination is reached that such countries are full and active PfP participants,
     have made significant progress toward democratic control of their armed forces,
     and are likely to further the principles of the Treaty to enhance security.

     The 1994 Act states that the program must facilitate transition to membership by
     supporting and encouraging joint planning, training, military exercises, and
     greater interoperability. The 1994 Act identifies the types of security assistance
     allowed. That assistance includes the transfer of excess Defense articles,
     international military education and training, and the Foreign Military Financing
     program. The President is required to provide a report that describes the
     assistance provided under the 1994 Act or what the Government provided to
     facilitate transition of PfP countries to full NATO membership.

     NATO Enlargement Facilitation Act of 1996. The 1996 Act was established
     within the Omnibus Consolidated Appropriations Act of 1997, under title VI of
     the “Foreign Operations, Export Financing, and Related Programs Appropriations
     Act.” The 1996 Act states that U.S. policy is to actively assist emerging
     democracies in Central and Eastern Europe so that they may eventually qualify
     for NATO membership as well as ensure that they are fully aware of and capable
     of assuming the costs and responsibilities of NATO membership. The 1996 Act
     states that the U.S. Government should expand support for military exercises and
     peacekeeping initiatives between and among those countries. That legislation
     also designates Poland, Hungary, the Czech Republic, and Slovenia as countries


                                          5
    eligible to receive assistance under the program established by the 1994 Act. The
    1996 Act also provides that the President may designate other emerging
    democracies in Central and Eastern Europe as eligible to receive assistance if
    those countries have expressed a desire to join NATO, are strategically significant
    to an effective NATO defense, and meet other criteria outlined in the 1994 Act.

    The 1996 Act also authorized that $60 million be appropriated in FY 1997 for the
    program established by the 1994 Act, which would be made available through
    Foreign Military Financing and the International Military Education and Training
    programs that were already established under existing statutory authorities. The
    legislation directed that funds be made available from prior appropriation acts for
    that particular fiscal year for implementation of two OSD programs—PIMS and
    the Regional Airspace Initiative. Those funds were described as any fiscal year
    funds made available under the 1994 Act with respect to countries eligible for
    assistance, or, during FY 1997, under any Act to carry out the WI program. In
    FY 1999 and FY 2002, Congress designated additional countries, including
    Estonia, Latvia, Lithuania, Romania, and Slovakia, as eligible to receive
    assistance under the 1994 Act.

    Because of potential benefits, a legal determination should be requested to
    determine applicability of statutes related to the WI program and not contained in
    title 10 of the United States Code. We believe that DoD may benefit from the use
    of other statutory authorities available to support DoD WI activities, such as the
    1994 Act and the 1996 Act. Therefore, the ASD(ISP) should request that the
    DoD General Counsel evaluate the two existing statutory authorities and
    determine if benefits could be derived from applying them to the WI program.


Guidance Issued for Execution of the WI Program
    The ASD(ISP) is responsible for oversight of policy developed for the PfP
    program. However, ASD(ISP) officials have not developed formal written
    guidance designed to ensure consistent implementation of the PfP program among
    the combatant commands. In fact, the Draft SOP from 1998 was rescinded in
    April 2004. Combatant commands were subsequently directed to execute the WI
    program using existing authorities under title 10.

    Without formal guidance on implementing the WI program, combatant commands
    have used broad interpretations of title 10, informal guidance such as the Draft
    SOP, and briefing charts to help implement the program. Although in April 2004,
    DSCA informed the combatant commands not to use the Draft SOP, combatant
    command officials had no other guidance with which to determine the appropriate
    use of funds and, therefore, most continued to use the Draft SOP. The lack of
    guidance has prevented the combatant commands from having clearly defined
    roles and responsibilities on both the level of oversight and the maintenance of
    supporting documentation. Clearly defined roles and documentation
    responsibilities for the combatant commands are critical because of the rotation of
    military personnel.




                                         6
WI Expenditures by Combatant Commanders
           The combatant commands did not consistently execute the WI program because
           they did not have formal guidance that outlined policies and procedures. As a
           result, multiple definitions of developing countries existed, and WI program funds
           were used to pay for costs that might have more appropriately been paid through
           other programs. With the exception of the U.S. European Command,
           documentation that the combatant commands provided was not sufficient to
           determine whether WI expenditures were reasonable and proper.

           Definitions of Developing Countries. Personnel from ASD(ISP), DSCA, and
           the combatant commands provided multiple definitions of developing countries.
           Under 10 U.S.C. 1051 and 10 U.S.C. 2010, eligibility of a country to receive WI
           program funds is subject to broad interpretation. ASD(ISP) officials stated that
           DSCA and ASD(ISP) used the definition of developing countries outlined by the
           World Bank. However, both DSCA and U.S. European Command officials
           provided different definitions of developing countries. A DSCA official stated in
           response to a discussion draft of this report that DSCA determines which
           countries are developing based on two criteria: (1) the country’s membership in
           PfP and (2) the country’s eligibility to receive Foreign Military Financing funds.
           In addition, the U.S. European Command, in formal comments to the draft report,
           stated that the U.S. Agency for International Development list is used to
           determine which countries are “developing.”

           Using the ASD(ISP) and DSCA definitions, each country receiving WI program
           funds would be eligible for assistance. However, using the definition of
           “developing” countries identified by the U.S. European Command (the U.S.
           Agency for International Development list), nine PfP countries 2 within the U.S.
           European Command area of responsibility that received funds from the PfP
           program would not be eligible 3 . Since January 2003, the U.S. European
           Command requested $10.9 million 4 for the nine countries to participate through
           FY 2004 in U.S. European Command PfP conferences, exercises, and seminars.
           According to ASD(ISP) officials, the U.S. Agency for International Development
           list was not used for defining “developing countries” and therefore, all countries
           receiving funds that the U.S. European Command requested were eligible.
           However, because of the lack of formal guidance, contradicting answers were
           given by personnel from ASD(ISP), DSCA, and the combatant commands. A
           formal written directive on the execution of the PfP program should be developed
           and distributed to the appropriate agencies and commands.

           Application of Funds by the Combatant Commands. The combatant
           commands (and different offices within those commands) did not consistently
           apply WI program funds. Specifically, some combatant commands used WI

2
    The nine countries not identified on the U.S. Agency for International Development’s list are Bulgaria,
    Estonia, Latvia, Lithuania, Romania, Russia, Slovakia, Slovenia, and Ukraine.
3
    The U.S. Agency for International Development uses the Organization for Economic Cooperation and
    Development Part I of the Development Cooperation Directorate list to define a developing country.
4
    Budget requests for FYs 2003 and 2004 were used instead of actual amounts received for consistency
    purposes.



                                                       7
           program funds to pay for expenses such as U.S. Military travel and other expenses
           related to PfP events when the use of other funds, such as official representation
           funds and traditional combatant command activity funds, might have been more
           appropriate. Official representation funds are funds allowing for payment of costs
           that extend official courtesies to guests for the purpose of maintaining the
           standing and prestige of the United States and DoD. Official representation funds
           may provide payment for expenses such as official receptions, dinners, and
           mementos. Also, the expenditure of traditional combatant command activity
           funds is primarily governed by 10 U.S.C. 168, “Military-to-Military Contacts and
           Comparable Activities,” February 10, 1996, and allows for military-to-military
           contacts and activities designed to encourage a democratic orientation of defense
           establishment and military forces of other countries. Specifically, 10 U.S.C. 168
           allows for such things as conferences and seminars as well as the personnel
           expenses for DoD civilian and military participation in those events.

           Payment for U.S. Military Travel. The combatant commands and two
           directorates within the U.S. European Command use different fund types to pay
           for U.S. Military travel associated with PfP events, such as exercises or seminars.
           The U.S. Joint Forces Command and the Plans and Policy Directorate of the
           U.S. European Command did not consider U.S. Military travel associated with the
           planning or managing of PfP conferences, exercises, and seminars to be an
           allowable WI expenditure. 5 The Draft SOP stated that WI program funds were
           intended for PfP countries so those countries could attend PfP events. The funds
           are not intended to pay expenses for the U.S. or other NATO participants. U.S.
           Joint Forces Command officials stated that traditional combatant command
           activity funds were used to pay for U.S. Military travel expenses. An official
           from the U.S. European Command Office of the Comptroller stated that other
           funds, such as the traditional combatant command activity funds, were available
           to pay for U.S. Military travel.

           U.S. Central Command and the Command and Control Directorate of the
           U.S. European Command determined that U.S. Military travel, in association with
           planning or managing PfP events, was an allowable WI expense. U.S. Central
           Command officials each stated that when U.S. Military personnel were
           responsible for planning and managing of an event, WI program funds were used
           to pay for travel to conferences, seminars, and exercises. U.S. Central Command
           personnel stated that they believed those expenditures were an allowable use of
           WI program funds under 10 U.S.C. 168. In FY 2003, the Command and Control
           Directorate of the U.S. European Command paid approximately $70,000 in WI
           program funds for U.S. Military travel in conjunction with the planning of the
           Combined Endeavor exercise. According to 10 U.S.C. 1051, 10 U.S.C. 2010, and
           the Draft SOP, the use of other funds may have been more appropriate to pay for
           U.S. Military travel expenses.

           Payment of U.S. Event Costs. Each combatant command, as well as directorates
           within the U.S. European Command, used different types of funds to pay for
           U.S. costs associated with hosting a PfP conference, exercise, or seminar. Those


5
    The Plans and Policy Directorate of the U.S. European Command used WI program funds to pay for the
    travel of U.S. Military personnel responsible for the administration of the WI program.



                                                    8
costs included expenses incurred for administrative and supply, contractor
support, or facility rental fees.

The Plans and Policy Directorate of the U.S. European Command did not use WI
program funds to pay for the costs associated with hosting an event. The Draft
SOP states that WI program funds are intended for PfP countries to attend PfP
events and not intended to pay the expenses of U.S. or other NATO participants.
Although the Plans and Policy Directorate officials of the U.S. European
Command had no visibility over funds other than WI program funds, an official
from the Office of the Comptroller at the U.S. European Command stated that
funds such as the traditional combatant command activity funds were available to
pay for U.S. event costs.

The U.S. Joint Forces Command, the U.S. Central Command, and the Command
and Control Directorate of the U.S. European Command did use WI program
funds to pay for U.S. costs associated with hosting a PfP event. The U.S. Joint
Forces Command officials stated that costs associated with an annual seminar
were considered incidental expenses because the non-WI eligible participants
were either subject matter experts or presenters at the seminar. According to the
Draft SOP and 10 U.S.C. 1051, those expenditures were allowable.

Combined Endeavor is an annual exercise of the Command and Control
Directorate of the U.S. European Command. U.S. European Command has been
sponsoring the exercise since 1995. Because no formal DoD guidance exists, the
Command and Control Directorate spent in FY 2003 $4.1 million of WI program
funds to pay for the U.S. portion of the exercise costs. However, only $218,000
of that $4.1 million was directly attributable to PfP country incremental expenses,
such as lodging, meals, and travel expenses. Of the remaining $3.9 million,
approximately $1.2 million was used for the salaries, travel, and other costs
associated with the six contractors whose sole responsibility was to manage the
annual exercise. Other exercise costs included administrative expenses,
conference room facilities, and other contract support.

The Draft SOP states that WI program funds are intended solely to pay PfP
country costs and may not be used to pay U.S., NATO, or non-PfP country
expenses, even if those expenses are directly associated with participating in a
PfP event. Using a broad interpretation of the 10 U.S.C. 2010 definition of
incremental expenses for an exercise, a portion of the costs could be considered
goods or services consumed by a PfP country, such as renting a conference room
or event transportation expenses. Because 50 percent of the Combined Endeavor
participants in 2003 were countries eligible to receive WI program funds,
50 percent of the U.S. exercises costs, or $1.9 million, could be considered an
allowable use of WI program funds. However, because other NATO and non-WI
eligible countries also participated and benefited from the exercise, the remainder
of those costs might have more appropriately been funded by other sources.

U.S. Central Command officials also stated that they used WI program funds to
pay for U.S. costs associated with hosting a PfP exercise. Because of the lack of
documentation for FY 2003, determining which U.S. costs were paid using WI
program funds is not possible. However, in its FY 2005 budget, the U.S. Central
Command planned to use WI program funds for expenses such as administrative



                                     9
supplies, conference facilities, and local transportation associated with U.S. PfP
events.

Payments for Entertainment Expenses. The Command and Control Directorate
of the U.S. European Command and the U.S. Joint Forces Command used WI
program funds to pay for entertainment expenses during U.S. PfP events. During
the Combined Endeavor exercise, the Command and Control Directorate used WI
program funds in the amounts of $497 and $1,200, respectively, to pay for a
guided city tour and musical entertainment. The U.S. Joint Forces Command
identified that WI program funds in the amount of approximately $12,400 were
used for opening and closing ceremonies. The Draft SOP stated that WI program
funds cannot be used to pay for official representation fund-related expenses.
Specifically, the Draft SOP stated that for WI program funds to be used, the
“expenses would have to be reasonable and directly related to the exercise rather
than purely social functions.” Because the costs for the opening and closing
ceremonies are not directly related to the participation of the developing country
in the seminar, the U.S. Joint Forces Command initiated corrective action. On
October 19, 2004, the U.S. Joint Forces Command transferred the $12,400 in
charges from the WI fund to the official representation fund.

Payments for Miscellaneous Expenses. On the basis of our interpretation of
10 U.S.C. 168, 10 U.S.C. 2010, and subsequent guidance from the Office of the
DoD General Counsel, use of WI program funds to pay miscellaneous expenses
may not be allowable. Specifically, miscellaneous expenses included items such
as OSD-sponsored studies, an exchange program, and costs for a publication
entitled “Combined Endeavor 10 Year History,” all of which may have been an
inappropriate use of WI program funds.

        OSD Programs. WI program funds were used to support OSD-sponsored
studies and an exchange program that facilitate PfP country interoperability with
U.S. and NATO forces. DSCA cited 10 U.S.C. 168 among the statutory
authorities that allow the use of WI program funds for those programs. Examples
of OSD programs include Command, Control, Communication, and Computers
studies and the Logistics Information Exchange program. Command, Control,
Communication, and Computer studies assess the interoperability of partner
country command and control systems with U.S. forces, identify weaknesses, and
propose corrective action. The Logistics Information Exchange is a program that
organizes exchanges to familiarize PfP countries with NATO logistics doctrine,
policies, and practices.

On the basis of our interpretation of 10 U.S.C. 168 and discussions with
representatives from the Office of the Deputy General Counsel (Fiscal), DoD, and
the Office of the Chairman of the Joint Chiefs of Staff, Legal Counsel, the OSD-
sponsored studies would not be considered authorized activities under
10 U.S.C. 168 and expenses for those would not, therefore, be allowable. The
representative from the Office of the Chairman of the Joint Chiefs of Staff, Legal
Counsel further stated that using 10 U.S.C. 168 would most likely not be an
appropriate authority for the expenditure of any WI program funds.

        Publication Costs. In July 2003, the Command and Control Directorate
of the U.S. European Command signed a military interdepartmental purchase
request asking for $240,000 from the WI fund in order to provide engineering and


                                     10
    technical services for the Combined Endeavor 2003 exercise. The request was to
    provide funding for the publication of the “Combined Endeavor 10 Year History.”
    In discussions held with representatives from the Office of the Deputy General
    Counsel (Fiscal), DoD, and the Office of the Chairman of the Joint Chief’s of
    Staff, Legal Counsel, on applicability of 10 U.S.C. 2010, the use of WI funds for
    publication costs may be improper. According to 10 U.S.C. 2010, only the
    payment of costs directly resulting from a country’s participation in an exercise
    are permitted; therefore, the publication costs should not have been paid using WI
    program funds. However, U.S. European Command officials stated that the
    publication costs were allowable under 10 U.S.C. 168. According to discussions
    with representatives from the Office of the Chairman of the Joint Chiefs of Staff,
    Legal Counsel, however, 10 U.S.C. 168 would most likely not be an appropriate
    authority for the expenditure of any WI program funds.

    During our audit, documentation of the total costs of publication was not
    provided, however, on January 24, 2005, the European Command stated that not
    all of the $240,000 was expended on publication costs. A receipt for $5,032.87 in
    publication costs was provided. We recommend that the European Command
    reimburse the WI fund for the total costs of publication of the “Combined
    Endeavor 10 Year History.”


Combatant Command Documentation
    With the exception of the U.S. European Command, documentation the
    combatant commands provided was not sufficient to determine whether WI
    payments were reasonable and proper. The DoD Financial Management
    Regulation states that all accountable officers are responsible for implementing a
    system of internal controls for a payment process that minimizes errors. Specific
    to the WI program, the Draft SOP stated that proper file maintenance and record
    keeping must be conducted. The Plans and Policy Directorate of the U.S.
    European Command used an automated system to provide the authorizing official,
    the certifying official, and the WI program manager with the visibility necessary
    to ensure that source documentation was sufficient to determine whether
    payments were proper and reasonable. Although the U.S. Joint Forces Command
    maintained documentation, for three exercises the documentation was not
    sufficient to support PfP country travel expenditures. The U.S. Central Command
    did not maintain documentation to allow proper oversight of the WI program.
    Without adequate documentation, the U.S. Joint Forces Command and the U.S.
    Central Command could not support whether all of the expenses paid were
    reasonable and appropriate.

    The U.S. Joint Forces Command. The U.S. Joint Forces Command established
    accounting procedures and maintained documentation that generally provided
    sufficient data to determine whether WI program funds were properly expended.
    However, for reimbursement of travel expenses, we could not find adequate
    documentation verifying the accuracy of reimbursements for three exercises. For
    example, the U.S Joint Forces Command received an invoice from a vendor for
    lodging, meals, and services that totaled approximately $116,000. The U.S. Joint
    Forces Command did not have documentation that could support whether U.S.
    personnel or non-eligible WI countries also participating in the event were


                                        11
       included on the invoice. Although the subordinate command and vendor
       subsequently provided additional documentation, the documentation was not
       sufficient to determine whether the costs incurred were only for PfP country
       travel expenses.

       The U.S. Central Command. The U.S. Central Command issued funding
       authorization documents to the U.S. Embassy within each PfP country. Thus, the
       responsibility of certifying and disbursing funds was placed on U.S. Embassy
       personnel. As a result, the WI program manager for the U.S. Central Command
       did not have supporting documentation for WI expenses for FY 2003. The
       U.S. Central Command also could not provide documentation because the WI
       program manager and comptroller personnel were new and unable to locate
       documentation from their predecessors. The Draft SOP stated that proper records,
       including documentation that substantiates obligation and disbursement of funds
       as well as a continuity file for newly assigned personnel, should be maintained
       and serve as a mechanism for internal controls to monitor the execution of funds.
       Without oversight of those payments, U.S. Central Command could not determine
       whether WI payments were appropriate and reasonable.


Conclusion
       DoD legal counsels have issued conflicting opinions on which statutes should be
       used to execute the WI program. Therefore, ASD(ISP) officials should request
       that the DoD General Counsel issue a legal determination on the most appropriate
       statutory authorities to use in executing the WI program. Regardless of the
       legislative authorities used, ASD(ISP) needs to develop formal written guidance
       on the policies and procedures for executing the WI program. Without that
       written guidance, combatant commands will continue to inconsistently execute
       the WI program and broadly interpret authorities for identifying which costs can
       and cannot be paid for from WI program funds. The guidance should identify the
       appropriate roles and responsibilities for the combatant commands, provide for
       consistent and proper application of funds, and address documentation
       requirements for supporting WI expenditures.


Management Comments on the Finding and Audit Response
       Management Comments. On January 18, 2005, we received comments from the
       Acting ASD(ISP) on the draft report. The Acting Assistant Secretary
       nonconcurred with the finding and expressed concern with our understanding of
       the WI program. On January 24, 2005, we received comments from the Deputy
       Director of Strategy, Policy, and Assessments of the U.S. European Command on
       the draft report. The Deputy Director partially concurred with the finding and
       identified concerns on our interpretations on whether certain costs were
       allowable.

Audit Response. In response to comments by the Acting ASD(ISP) and the Deputy
Director of Strategy, Policy, and Assessments, we revised our draft report to better reflect
key aspects of the WI program and revised our recommendations accordingly.


                                            12
Revised Recommendations. As a result of management comments, we revised draft
Recommendations 1.a., 1.b., and 2.

1. We recommend that the Assistant Secretary of Defense for International
Security Policy:

       a. Request a legal determination on whether Public Law 103-447, title II,
“NATO Participation Act of 1994” (1994 Act), November 2, 1994, and Public
Law 104-208, title VI, “NATO Enlargement Facilitation Act of 1996” (1996 Act),
September 30, 1996, can be used as legislative authorities for executing the Warsaw
Initiative program.

      b. Develop formal written guidance on the policies and procedures for
executing the Warsaw Initiative program. At a minimum, the guidance should:

           (1) Identify the existing legislative authorities applicable to the Warsaw
Initiative program.

        (2) Define the roles and responsibilities for Warsaw Initiative program
managers.

         (3) Establish criteria for determining reimbursable costs for expenses,
such as military travel, conferences, exercises, entertainment, and publications.

         (4) Establish procedures for documenting reimbursement costs as
allowable and reasonable.

ASD(ISP) Comments. The Acting ASD(ISP) agreed with Recommendation 1.b. and
stated that guidance will be issued by July 2005. We request comments from the Acting
Assistant Secretary on our revised Recommendation 1.a. in this final report.

2. We recommend that the Command and Control Director of the U.S. European
Command initiate an accounting adjustment to transfer the $1,697 used for
entertainment expenses and the total cost for publication expenses for the
Combined Endeavor 10 Year History from the Warsaw Initiative fund to the
correct funding allocation.

U.S. European Command Comments. The U.S. European Command’s Deputy
Director of Strategy, Policy, and Assessments partially concurred with the
recommendations. The Deputy Director stated that corrective actions will be taken to
transfer the guided tour expenses and musical entertainment expenses to the correct
funding accounts. However, the Deputy Director stated that the command’s judge
advocate determined that publication expenses were an allowable expense according to
10 U.S.C. 168 as a military-to-military engagement tool. In addition, the Deputy
Director stated that the amount paid on publication expenses was $5,032.87, and not the
$240,000 cited in the report.

       Audit Response. The comments provided by the Deputy Director of Strategy,
       Policy, and Assessments are partially responsive. After the ASD (ISP)
       establishes criteria for determining reimbursable costs (Recommendation 1.b.3.),
       we will follow up with the Command and Control Director of the U.S. European



                                           13
Command to determine whether the total cost expended for publication should be
reimbursed to the WI fund.




                                  14
Appendix A. Scope and Methodology
    We reviewed statutory authorities and DoD policies and procedures used to
    execute the WI program. Specifically, we reviewed President Clinton’s speech
    made in Warsaw, Poland, on July 1994; congressional memorandums and reports;
    10 U.S.C. 168, 1051, and 2010; the 1994 Act; the 1996 Act; the European
    Security Act of 1998, and other public laws. We also reviewed various DoD
    directives and informal guidance. In addition, we reviewed Defense Hotline
    documentation concerning the use of WI program funds to construct a new
    facility for PIMS. The documentation reviewed was dated from July 1994
    through October 2004.

    We conducted interviews with officials from the offices of the Under Secretary of
    Defense (Comptroller), the OSD General Counsel, the Joint Staff, ASD(ISP), the
    U.S. Joint Forces Command, the U.S. European Command, the U.S. Central
    Command, the Air Force general counsel, the U.S. Mission to NATO, Defense
    Finance and Accounting Service, DSCA, the PIMS Program Management Office,
    the PIMS Processing Center, and the PfP Coordination Cell.

    We reviewed budget and allocation documentation, contracts, military
    interdepartmental purchase requests, spreadsheets, and memorandums during
    FY 2003 and FY 2004 for DSCA and the combatant commands. At the
    combatant commands and PIMS Program Management Office, we identified
    accounting procedures and obtained and analyzed documentation, including
    vouchers, invoices, payment instruction forms, and funding authorizations. Also,
    we reviewed receipts for payments using WI program funds for PfP events, such
    as exercises, conferences, seminars, or similar meetings. We performed this audit
    from April 2004 through May 2005 in accordance with generally accepted
    government auditing standards.

    Limitations. Because of resource constraints, we were unable to visit and obtain
    documentation maintained at U.S. Embassies to verify whether disbursements
    were adequate and appropriate.

    Use of Computer-Processed Data. We relied on limited computer-processed
    data to perform this audit. The use of computer-processed data was limited to
    data provided from the U.S. European Command on the automated creation and
    routing of payment requests for the WI program. Although we did not perform a
    formal reliability assessment of the computer-processed data, we did not find
    errors between the computer-processed data and the supporting payment
    documentation that would preclude the use of computer-processed data to meet
    the audit objective or that would change the conclusions in this report.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require that DoD organizations implement a comprehensive


                                       15
      system of management controls that provides reasonable assurance that programs
      are operating as intended and to evaluate the adequacy of the controls.

      Scope of the Review of the Management Control Program. We reviewed the
      adequacy of management controls at ASD(ISP) and DSCA. Specifically, we
      reviewed the authorities, policies, and procedures that ASD(ISP) and DSCA
      established for executing the WI program. We reviewed ASD(ISP) and DSCA
      management’s self-evaluation.

      Adequacy of Management Controls. We identified a material management
      control weakness within DoD as defined by DoD Instruction 5010.40.
      Specifically, DoD did not issue finalized guidance to establish policies and
      procedures for the execution of the program. As a result, ASD(ISP) personnel
      and the combatant commands used broad interpretations of 10 U.S.C. 168, 1051,
      and 2010 to execute the WI program. The recommendations, if implemented, will
      provide clear guidance for combatant commands to execute the program. A copy
      of this report will be provided to senior officials within the office of the Under
      Secretary of Defense for Policy for the formation and implementation of DoD
      management controls.

      Adequacy of Management’s Self-Evaluation. ASD(ISP) officials stated that
      they do not identify specific programs as part of their management’s self-
      evaluation. Therefore, ASD(ISP) and DSCA did not identify the WI program as
      an assessable unit.


Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Department of Defense Office of the Inspector General (DoD OIG) have issued
      two reports related to the PfP program. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted DoD OIG reports
      can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-01-734, “NATO, U.S. Assistance to the Partnership for
      Peace,” July 2001

DoD IG
      DoD IG Report No. 04-INTEL-03 (U), “Intelligence Systems Support Office’s
      Management of Travel, Other Funds, and Contract Policies,” January 20, 2004




                                          16
Appendix B. Defense Hotline Allegation on
            Warsaw Initiative Funding
   Allegation. Hundreds of thousands of dollars were inappropriately redirected
   from PfP to be used for the establishment of a new facility for the PIMS.

   Results. The allegation was partially substantiated. We found that $36,193.48 of
   WI program funds, not “hundreds of thousands of dollars,” was used to pay for
   modification of a building in Belgium. However, PIMS officials had originally
   designated non-WI funding for the modifications. During our audit, when PIMS
   officials identified that WI program funds had been used to pay for the
   modification, they initiated an accounting adjustment and moved the charges to
   the correct funding account.
   Background. PIMS was established to provide information management and
   communications infrastructure to participating members of the NATO PfP
   community. Specifically, PIMS is designed to facilitate collaborative
   development and sharing of information among participants on a day-to-day
   basis, as well as through information technology support to conferences,
   workshops, and exercises.

   For FY 2003, PIMS received $14.2 million in WI program funds. The PIMS
   Program Office headquarters is at Fort Washington, Maryland, and the PIMS
   Processing Center is located at Daumerie Caserne, Belgium, which is the central
   site outside the continental United States for communications, connectivity, and
   system support. UNISYS, the prime contractor for PIMS, inhabits a building in
   Brussels, Belgium, located next to NATO Headquarters. PIMS had an informal
   agreement with the Air Force’s Office of General Counsel to modify and cohabit
   a portion of its office space in the UNISYS building in Brussels.

   Types of Funds. The UNISYS contract contains funds from several different
   sources. The UNISYS contract and its associated modifications contained a total
   of seven separate Accounting Classification Reference Numbers (accounting
   classifications), each funded through different Air Force and OSD appropriation
   accounts. The following table shows the accounting classifications for the
   UNISYS contract and information on the types of funds associated with the
   separate accounting classifications.




                                      17
       Funding Sources for Contract Accounting Classifications

     Accounting
    Classification       Appropriation            Type of Funds
         AA               97 03 0100                 OSD O&M
         AB                57 3 3400              Air Force O&M
         AC                57 2 3600             Air Force research,
                                               development, test, and
                                                evaluation (RDT&E)
          AD               97 03 0100                OSD O&M
          AE                57 3 3600            Air Force RDT&E
          AF               97 3 0100                 OSD O&M
          AG               97 3 0400               OSD RDT&E

The first two digits of the appropriation indicate the source of the funds. The
appropriations beginning with a “97” indicate that the appropriation is from OSD.
Funds beginning with a “57” are Air Force appropriations. The next number (or
numbers) in the appropriation represent the fiscal year and the next four numbers
indicate the type of funding. For example, the OSD appropriations, “0100”
represents O&M funds and “0400” represents RDT&E funds. Within the Air
Force, “3600” represents RDT&E funds and “3400” represents O&M.

Building Modifications. At the beginning of the audit, the PIMS deputy
program manager stated that office space in the UNISYS building in Brussels had
been modified under the UNISYS contract with PIMS, but stated that the work
was done using Air Force RDT&E money, not WI program funds. PIMS officials
provided copies of the cost estimate of $67,841 from UNISYS for the
modifications. PIMS officials also provided the military interdepartmental
purchase request and the associated contract modification, which was to be used
to obligate funds, also in the amount of $67,841.

On September 18, 2003, the UNISYS contract was modified adding four
accounting classifications. One of the accounting classifications, AE, designated
$67,841 of Air Force RDT&E funds. The contract modification states that those
Air Force RDT&E funds were specifically for the modification of the PIMS
Processing Center in Brussels. The DoD Financial Management Regulation
allows for the use of RDT&E funds for construction.
UNISYS Invoices. PIMS officials stated that the modifications to the building
made by UNISYS had been invoiced. However, we were unable to identify
which specific costs had been invoiced because of the lack of information
contained in the UNISYS invoices. Specifically, PIMS officials provided two
invoices from UNISYS, both of which contained a single highlighted cost for the
building modification. However, determining the items bought for the invoiced
amounts is not possible. The first invoice dated January 6, 2004, had a
highlighted cost of $36,193.48 that was later identified as part of the
modification, although the invoice contained no description of the work
performed. The second invoice, dated May 18, 2004, had $16,676.42 highlighted
for the building modification, but also contained no additional information. PIMS


                                    18
officials stated that they had to call UNISYS for clarification, and subsequently,
the contractor identified that both costs were for the building modification.

Payment of Invoices. PIMS officials stated that the invoice for $16,676.42 was
appropriately paid using Air Force RDT&E funds, but did not provide any
information on the source of payment for the $36,193.48. Our inquiries with
officials at the Defense Finance and Accounting Service revealed that the first
invoice containing the $36,193.48, which should have been paid out of Air Force
RDT&E funds (AE), was originally certified to be paid using Air Force O&M
funds (AB). However, that invoice amount was actually paid using OSD O&M
WI program funds (AA).

Defense Finance and Accounting Service officials stated that insufficient funds
were available from the account designated by the certifying officer, and
therefore, WI program funds were used. However, Defense Finance and
Accounting Service could not provide documentation. DSCA officials confirmed
that AA was funded using WI program funds. In a similar manner, the second
invoice containing $16,676.42 was originally certified to be paid using
OSD O&M WI program funds (AD). When discovered that charges relating to
the building modification were contained in the invoice, the certifying official
changed the accounting classifications to correctly charge the $16,676.42 to Air
Force RDT&E funds (AE).

Correction of Accounting. PIMS officials confirmed that the $36,193.48 was
incorrectly paid out of OSD O&M WI program funds (AA). PIMS officials
prepared a Standard Form 1081, “Voucher and Schedule of Withdrawals and
Credits,” to correct the charges. The charge of $36,193.48 was moved from the
OSD O&M WI program funds to the Air Force RDT&E funds (AE), which was
the original fund established on the military interdepartmental purchase request
for the building modification. The military interdepartmental purchase request
transaction history shows that a charge of $36,193.48 was paid on July 29, 2004,
using Air Force RDT&E funds. With the correction of the $36,193.48, no other
expenses for the modification of the building were charged to WI program funds.




                                     19
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Policy
  Assistant Secretary of Defense for International Security Affairs
      Director, Defense Security Cooperation Agency
  Assistant Secretary of Defense for International Security Policy
   Defense Advisor, U.S. Mission to NATO
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Director, Program Analysis and Evaluation
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Office of the Secretary of Defense, General Counsel

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. European Command
Commander, U.S. Central Command




                                           20
Non-Defense Federal Organization
Department of State
  Office of Inspector General
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Subcommittee on International Operations and Terrorism, Committee on Foreign
  Relations
Senate Committee on Governmental Affairs
Senate Subcommittee on Financial Management the Budget and International Security,
  Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations




                                        21
Assistant Secretary of Defense for International
Security Policy Comments




                       23
U.S. European Command Comments
                                 Final Report
                                  Reference




                                   Revised
                                   Page 7




                   24
Final Report
 Reference




Deleted




Deleted




Revised
Page 11




               25
26
27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach II
Dennis L. Conway
Clara L. Stanfield
Tomasa Pack
Susann L. Stephenson
Sharon L. Carvalho
